U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




          NATIONAL OCEANIC and
   ATMOSPHERIC ADMINISTRATION

        Chanhassen Weather Forecast Office

       Generally Provides Effective Forecasts,

        But Office Management and Regional 

                 Oversight Need Improvement




       Final Inspection Report No. IPE-14423/March 2002




                            PUBLIC
                            RELEASE



          Office of Inspections and Program Evaluations

U.S. Department of Commerce                                                                               Final Report IPE–14423 

Office of Inspector General                                                                                           March 2002 


                                                 TABLE OF CONTENTS
                                                                                                                                    Page

EXECUTIVE SUMMARY ........................................................................................................... i 


INTRODUCTION ........................................................................................................................ 1 


OBJECTIVES, SCOPE, AND METHODOLOGY...................................................................... 1 


BACKGROUND .......................................................................................................................... 2 


FINDINGS AND CONCLUSIONS ............................................................................................. 6 


I.        WFO’s Weather Forecasting Is Generally Effective ........................................................ 6 


          A. WFO’s verification statistics compare favorably, except for flash-flood warnings ... 6 

          B. State weather forecast product may be unnecessary................................................... 9 


II.       Office Outreach Program Is Effective ............................................................................ 11 


III.      Skywarn and Cooperative Observer Programs Are Well Run........................................ 13 


          A. Skywarn program operates effectively ..................................................................... 13 

          B. Cooperative Observer Program faces changes ......................................................... 13 


IV.       Office Training Program Could Be Improved ................................................................ 15 


V.        Maintenance of Information Technology Resources Is Good ........................................ 16 


VI.       Administrative Operations Lack Adequate Internal Controls ........................................ 17 


          A. Office staff failed to follow Commerce and NOAA regulations 

              for purchase cards ..................................................................................................... 17 

          B.	 The WFO inappropriately used convenience checks to pay for some WFO

              expenses as well as those of other NWS offices....................................................... 21 

          C. WFO lacks adequate controls for maintaining accountable property....................... 24 


VII.      Regional Oversight Should Be Improved ....................................................................... 27 


RECOMMENDATIONS............................................................................................................ 29 


APPENDIX: Acronyms ............................................................................................................. 30 


AGENCY RESPONSE............................................................................................................... 31 

U.S. Department of Commerce                                                  Final Report IPE–14423 

Office of Inspector General                                                              March 2002 



                                   EXECUTIVE SUMMARY

Pursuant to the authority of the Inspector General Act of 1978, as amended, the Office of
Inspector General conducted an inspection of the National Weather Service’s (NWS) Weather
Forecast Office (WFO) in Chanhassen, Minnesota. Our fieldwork was conducted from
September 10 through 14, 2001. We also conducted interviews and reviewed files and other
pertinent information at NWS headquarters from August 20 through November 2, 2001. The
objective of this inspection was to determine how effectively the Chanhassen WFO (1) delivers
warnings, forecasts, and other information to its service users; (2) coordinates its activities with
state and local emergency managers; and (3) manages its network of observers and volunteer
spotters. In addition, we assessed the adequacy of the office’s management, its internal controls,
and its compliance with Department, National Oceanic and Atmospheric Administration
(NOAA), and NWS policies and procedures. We also assessed the effectiveness of NWS’s
regional oversight. This is the fourth in a series of OIG inspections of individual WFOs.

NWS, an agency within NOAA, has 121 WFOs nationwide. Each WFO issues local weather
forecasts and warnings of severe weather—such as tornadoes, severe thunderstorms, floods,
hurricanes, and extreme winter weather—for its assigned counties. In the spring of 1995, the
Chanhassen office increased its responsibilities due to the expected closure of two nearby
Weather Service Offices. The expansion carried with it additional duties, including issuing
warnings for 51 counties, instead of 23, and the Radiosonde Upper Air Observing (Upper Air)
Program. The Upper Air Program uses balloon-launched, weather-sensing devices that transmit
weather conditions aloft to the WFO by radio transmitter. At the time of our review, the office
had a staff of 25 and serviced a warning area covering 51 counties in southern and central
Minnesota and west central Wisconsin.

The WFO uses various technologies and programs to help protect the citizens in its county
warning area. In addition to the Upper Air program, radar, satellite, and automated surface
observing systems are used to prepare forecasts and issue warnings for all types of severe
weather. NWS commissioned the Advanced Weather Interactive Processing System in
Chanhassen on May 4, 2000, to integrate NWS meteorological and hydrological data with NWS
satellite and radar data, enabling forecasters to prepare and issue more accurate and timely
forecasts and warnings.

In performing this review, we examined pertinent records and documents and interviewed all of
the available staff at the Chanhassen WFO. We also interviewed the regional director and some
of his staff in Kansas City, Missouri, as well as other representatives from the Commerce
Department, and other federal, state, and local government officials, including emergency
managers. In addition, we spoke with private-sector representatives involved in meteorological
activities to obtain their assessment of the services provided by the Chanhassen WFO as well as
to solicit any suggestions they had for improving the office’s provision of critical weather
information.




                                                 i
U.S. Department of Commerce                                                 Final Report IPE–14423 

Office of Inspector General                                                             March 2002 



We found that the Chanhassen WFO generally provides effective weather products and services,
but office management and administrative deficiencies need prompt attention by NWS and WFO
managers. More specifically, we found that:

��	 The WFO’s weather forecasts and warnings are generally timely and accurate, except
    for the flash-flood warning lead-time. Based on our discussions with WFO personnel and
    users of the WFO’s services, and a review of the office’s records, we attribute the office’s
    overall commendable performance record to the staff’s commitment and extensive
    experience forecasting local weather patterns and climatic conditions. However, the WFO
    provided only 8 minutes average lead-time for flash floods compared to the Central Region’s
    average of 45 minutes advance warning. To improve its flash-flood forecasts, office staff
    believe it would be helpful for NWS officials to provide them with clearer guidance on how
    to more effectively use the forecast criteria in determining what conditions must be present to
    issue flash-flood warnings for their specific terrain (see page 6).

��	 The Outreach Program to the community is effective. The Chanhassen staff has
    undertaken a very strong outreach program to emergency managers, the media, local schools
    and community groups. We interviewed several public officials and emergency managers in
    the metropolitan area of Minneapolis/St. Paul to determine the effectiveness of the
    Chanhassen WFO’s outreach program. We also reviewed WFO monthly activity reports to
    determine the frequency and breadth of outreach efforts with the local community and
    received very positive feedback from users about their interaction with WFO staff and the
    quality of services they received. Overall, it appears that the office’s outreach program is
    effective (see page 11).

��	 Chanhassen’s Skywarn and Cooperative Observer Programs are well run. The office
    has effective Skywarn and Cooperative Observer programs in place. The Cooperative
    Observer Program relies on volunteer observers to report on weather events. The Skywarn
    Program, which trains volunteer spotters to provide the WFO with timely and accurate severe
    weather reports, is particularly successful as a result of the staff’s outreach to the community
    to recruit new volunteer spotters and hold pre- and post-severe weather season meetings with
    them. (see page 13).

��	 Office’s Training Program could be improved. Although the WFO staff generally
    received the training they requested, a more comprehensive list of available training should
    be provided to them. Individual development plans also needed to be completed for all
    members of the staff (see page 15).

��	 Maintenance of Information Technology (IT) resources is good. The WFO’s
    information technology resources (computer hardware and software, weather radar) are well
    maintained. Although the electronic systems analyst also fulfills the duties of an
    information technology officer, the office has a good IT program with an approved IT
    security plan, a risk analysis, and a contingency plan in place (see page 16).




                                                 ii
U.S. Department of Commerce                                                Final Report IPE–14423 

Office of Inspector General                                                            March 2002 



��	 Administrative operations lack adequate internal controls. Our review of the WFO’s
    administrative operations included its use of purchase cards and convenience checks,
    personnel, time and attendance, procurement, accountable property, and use of government
    vehicles. We found that weak internal controls over the use of government purchase cards
    and convenience checks and inadequate maintenance of accountable property records leave
    the office open to theft and waste of government resources. The WFO’s purchase cards and
    convenience checks have been used inappropriately for some WFO purchases and to pay
    bills of other NWS units (see page 17).

��	 Regional oversight should be improved. NWS regional offices are responsible for offering
    management support to and overseeing the management, programs and administrative
    operations of the WFOs in their region. The Central Region headquarters in Kansas City,
    Missouri, should improve its oversight of the Chanhassen WFO by conducting on-site
    reviews of its management, program, technical, and administrative operations (see page 27).

On page 29, we offer a series of recommendations to the NWS Assistant Administrator and the
Director, NWS Central Region, to address concerns raised in this report.




In its response to our draft report, NWS concurred with all of our recommendations. NWS
officials stated that they have taken corrective action on three of the nine recommendations, and
have developed an implementation schedule for the six remaining recommendations.




                                                iii
U.S. Department of Commerce                                                           Final Report IPE–14423 

Office of Inspector General                                                                       March 2002 



                                            INTRODUCTION

Pursuant to the authority of the Inspector General Act of 1978, as amended, the Office of
Inspector General conducted an inspection of the National Weather Service’s (NWS) Weather
Forecast Office (WFO) in Chanhassen, Minnesota.

Inspections are special reviews that the OIG undertakes to provide agency managers with timely
information about operational issues. One of the main goals of an inspection is to eliminate
waste in federal government programs by encouraging effective and efficient operations. By
asking questions, identifying problems, and suggesting solutions, the OIG hopes to help
managers move quickly to address problems identified during the inspection. Inspections may
also highlight effective programs or operations, particularly if their success may be useful or
adaptable for agency managers or program operations elsewhere.

This inspection was conducted in accordance with the Quality Standards for Inspections issued
by the President’s Council on Integrity and Efficiency. Our fieldwork was conducted from
September 10 through 14, 2001. We also conducted interviews and reviewed files and other
pertinent information at NWS headquarters from August 20 through November 2, 2001. During
the review and at its conclusion, we discussed our findings with the meteorologist-in-charge
(MIC) of the Chanhassen WFO, the director of NWS’s Central Region in Kansas City, Missouri,
the Assistant Administrator for NWS, and other NOAA senior managers.

                         OBJECTIVES, SCOPE, AND METHODOLOGY

The objective of this inspection was to determine how effectively the Chanhassen WFO
(1) delivers forecasts, warnings, and other information to its service users, which include the
general public; (2) coordinates its activities with state and local emergency managers; and (3)
manages its network of observers and volunteer spotters. In addition, we assessed the adequacy
of the office’s management and its internal controls and compliance with Department, NOAA,
and NWS policies and procedures. We also assessed the effectiveness of regional oversight.
This is the fourth in a series of OIG inspections of WFOs nationwide.1

In performing our review, we examined pertinent records and documents and interviewed all of
the available staff at the Chanhassen WFO. We also spoke by telephone with the regional
director and some of his staff, and interviewed many representatives from the Department and
other federal, state, and local government agencies. In addition, we spoke with individuals
outside of the federal government who are involved in meteorological activities and work closely
with the Chanhassen staff to obtain their assessment of the services provided by the WFO as well


1
 (1) Raleigh Weather Forecast Office Provides Valuable Services but Needs Improved Management and Internal
Controls, Final Inspection Report No. IPE-12661, Office of Inspector General, September 2000, (2) San Angelo
Weather Forecast Office Performs Its Core Responsibilities Well, but Office Management and Regional Oversight
Need Improvement, Final Inspection Report No. IPE-13531, Office of Inspector General, June 2001, and (3)
Missoula Weather Forecast Office Generally Provides Quality Service to Its County Warning Area, Final Inspection
Report No. IPE-14225, Office of Inspector General, September 2001.


                                                       1

U.S. Department of Commerce                                              Final Report IPE–14423 

Office of Inspector General                                                          March 2002 



as to elicit any suggestions they had for improving the WFO’s conveyance of critical weather
information.
                                         BACKGROUND

NWS, an agency within NOAA, has 121 Weather Forecast Offices nationwide, and every U.S.
county is assigned to a specific WFO for weather warning purposes. Each office issues local
forecasts, such as periodic zone forecasts, and warnings of severe weather, such as tornadoes,
severe thunderstorms, fires, floods, hurricanes, and extreme winter weather, for their assigned
counties. The offices, where applicable, also support NWS’s marine, aviation, and climatic data
collection programs and prepare guidance for the fire weather program, which supports federal
lands management and wildfire control. The WFOs are responsible for effectively using
advanced meteorological technology to issue weather predictions and continue to improve the
timeliness and accuracy of forecasts and severe weather warnings to the public.

In March 1995, the Weather Service Forecast Office was relocated from the Minneapolis Airport
to Chanhassen. During this time, the office’s County Warning Area expanded due to the transfer
of counties from the expected closure of Weather Service Offices at Rochester and St. Cloud.
These two offices officially closed on December 18, 1998. The Chanhassen office (Figure 1),
shares its facility with two other NWS offices: (1) the North Central River Forecast Center,
which is primarily responsible for providing timely issuance of river and flood forecasts to
mitigate loss of life and property; and (2) the National Operational Hydrologic Remote Sensing
Center, which provides hydrology products, applications, and data to support various local,
regional, and national hydrology programs.

Figure 1: NWS Weather Forecast Office, Chanhassen, Minnesota




At the time of our review, the Chanhassen WFO had a staff of 25 employees: a meteorologist-
in-charge, a warning coordination meteorologist, a science and operations officer, a data


                                                 2

U.S. Department of Commerce                                                             Final Report IPE–14423 

Office of Inspector General                                                                         March 2002 



acquisition program manager, an electronics system analyst, an administrative assistant, five lead
forecasters, five journeyman forecasters, five hydrometeorological technicians, two electronic
technicians, a sector facilities technician, and a regional maintenance specialist.2 At the time of
our review, the WFO’s fiscal year 2001 training, travel, purchases, and equipment budget was
$31,725. The WFO has a satellite office located at the Federal Aviation Administration’s Air
Route Traffic Control Center in Farmington, MN, which is staffed with an MIC and three
meteorologists.

The Chanhassen WFO, located in NWS’s Central Region, has weather forecast and warning
responsibility for 51 counties (including the twin cities of Minneapolis/St. Paul) in most of
southern and central Minnesota and part of west central Wisconsin (shown in Figure 2 below).
The Central Region Headquarters, located in Kansas City, MO, is responsible for 38 WFOs and
2 River Forecast Centers (RFCs).

Figure 2: Chanhassen WFO’s County Warning Area




                                                  �




                                                                 Minneapolis/St. Paul




Source: National Weather Service

WFOs use various technologies and programs to help protect the citizens in their county warning
areas. Radar, satellite, and automated surface observation systems are used to prepare forecasts
and issue warnings for all types of severe weather. The Advanced Weather Interactive
2
 The sector facilities technician and the regional maintenance specialist are Central Region office employees who
work out of the Chanhassen WFO.


                                                        3

U.S. Department of Commerce                                                  Final Report IPE–14423 

Office of Inspector General                                                              March 2002 



Processing System (AWIPS) in Chanhassen was commissioned by NWS on May 4, 2000.
AWIPS, an interactive computer system that integrates NWS meteorological and hydrological
data with NWS satellite and radar data, is designed to enable forecasters to prepare and issue
more accurate and timely forecasts and warnings. The WFO’s radar (shown in Figure 3) is
located approximately 100 feet behind the office complex and 1045 feet above sea level. The
WFO has an active Radiosonde Upper Air Observing (Upper Air) Program with balloon
launches twice daily—5 a.m. and 5 p.m. during the winter months, and 6 a.m. and 6 p.m. during
the summer months. The upper air tower is located approximately 150 feet southeast of the
office (also shown in Figure 3).

Figure 3: Chanhassen WFO Radar (left) and Upper Air Tower (right)




NWS is in the process of implementing a new Interactive Forecast Preparation System (IFPS),
which is a component of AWIPS. IFPS is a sophisticated software program, developed to
integrate the Interactive Computer Worded Forecast and the Advanced Forecast Preparation
System. It provides interactive tools that allow forecasters to interpret and edit grids of weather
elements and to generate products in various formats from the digital database.

To effectively provide early warnings and collect important climatological data, the WFO must
rely in part on its many partners. For example, state and local emergency managers are vital
components of the WFO’s efforts to disseminate critical weather information to the public, and
the WFO plays an important role in state and local officials’ efforts to keep abreast of severe
weather events. Other partners include media representatives and Skywarn and Cooperative
Observer volunteers.

The office’s Skywarn program, part of a nationwide effort, trains volunteer spotters to provide
the WFO with timely and accurate eyewitness severe weather reports. The Cooperative


                                                 4

U.S. Department of Commerce                                                 Final Report IPE–14423 

Office of Inspector General                                                             March 2002 



Observer Program uses volunteers to provide daily weather measurements, including rainfall and
snowfall amounts. The meteorological community considers both programs to be critical to
verifying and collecting data to improve forecast models and to recording accurate climatic data.
After developing weather forecasts and obtaining critical information from its partners, the office
disseminates that information to the general public through NOAA Weather Radio, the Internet,
and other means.




                                                5

U.S. Department of Commerce                                                            Final Report IPE–14423 

Office of Inspector General                                                                        March 2002 



                                   FINDINGS AND CONCLUSIONS


I.      WFO’s Weather Forecasting Is Generally Effective

We examined the Chanhassen WFO’s performance statistics to determine whether it has been
issuing timely and accurate weather products to the public. Every WFO prepares and issues
general or zone3 forecasts, severe weather and flood warnings, advisories, and specific forecasts
for each of its weather programs. As shown in Table 1, on page 7, verification statistics show
that the office’s weather forecasts have, in general, been timely and accurate when compared
with the Central Region average, except for the hydrology program’s flash-flood warning lead-
time. Based on our discussions with WFO staff and users of the WFO’s services, as well as a
review of the office’s records, we believe that the office’s commendable performance record is
due to the staff’s commitment and extensive experience (several with 20 or more years with the
office) forecasting local weather patterns and climatic conditions for their county warning area
(CWA), including the twin cities of Minneapolis/St. Paul. The managers and forecast staff at
Chanhassen believe that they have been able to effectively accomplish their mission due to the
staff’s extensive experience and their understanding of the regional weather patterns for their
county warning area (CWA), including the twin cities of Minneapolis/St. Paul. We noted that
the probability of precipitation program (POP) showed improvement over the model guidance,
and the WFO’s POP statistics met or exceeded the National Weather Service (NWS) Central
Region average.

To determine the WFO’s overall effectiveness, we also interviewed WFO personnel and
numerous emergency management officials, and television and radio meteorologists who work
closely with the office. Both external groups stated that the office provides valuable weather
services.

A.      WFO’s verification statistics compare favorably, except for flash-flood warnings

Overall, the Chanhassen WFO’s forecast accuracy compared well with the averages for the
Central Region, although the timeliness of its flash-flood warnings could be improved. The
WFO provided only 8 minutes average lead-time for flash floods compared to the region’s
average of 45 minutes advance warning.

Table 1 compares Chanhassen’s performance with the average for all Central Region WFOs.
We used the same criteria and guidelines followed by NWS headquarters and Central Region
officials to evaluate the performance of individual WFOs. Central Region officials told us that
they consider the verification statistics for all five weather programs in determining the
effectiveness of a particular WFO’s forecast program. The officials stated that they do not have


3
  Each WFO has a county warning area that is divided into zones, comprising single or multiple counties that are
often large and topographically diverse. For each zone, the Chanhassen office issues zone forecasts that include
temperature (max/min), probability of precipitation (POP), precipitation type, cloud type, cloud amount, snow
amount, and wind direction and speed. The Chanhassen office issues two seven-day extended zone forecasts every
day.


                                                        6

U.S. Department of Commerce                                                               Final Report IPE–14423 

Office of Inspector General                                                                           March 2002 



a guideline for margin of error for any variance occurring for each of the verification statistics.
They stated that they intend to add the forecast goals for the region in their next strategic plan
and, when possible, apply these same goals at the WFO level. Based on the verification statistics
shown in Table 1, we found that WFO Chanhassen’s winter weather, aviation, severe storms, and
probability of precipitation programs all scored fairly close to the regional average. In our
discussions with NWS Central Region and headquarters officials, all agreed that Chanhassen had
a generally effective forecasting record, except for the flash-flood warning lead-time.
Table 1: Chanhassen Verification Statistics for FY 2001
                              Central Region       Chanhassen            Better Than/           Worse Than
                                 Average              WFO                  Equal To              Regional
                                                                       Regional Average          Average
Flash-Flood Program
False alarm ratio                      .41                 .14                  X
Probability of detection               .85                 .88                  X
Lead-time1                        45.1 minutes         7.9 minutes                                   X

Winter Weather Program
False alarm ratio                     .26                 .17                   X
Probability of detection2             .91                 .89                                        X
Lead-time                          12.2 hours          12.8 hours               X

Aviation Program
Probability of Detection
All cycles/projections,
ceilings <1000 feet                    .37                 .36                                       X
All cycles/projections,
visibility <3 miles                    .27                 .26                                       X

Tornado Program
False alarm ratio                      .66                 .58                  X
Probability of detection               .73                 .77                  X
Lead-time                         11.0 minutes        10.8 minutes                                   X

Probability of
Precipitation Program
Forecasts improved over
model guidance:
24-hour forecast                      4.0%                8.6%                  X
36-hour forecast                      4.2%                8.1%                  X
Percent of correct forecasts:
24-hour forecast                     87.7%               87.3%                                       X
36-hour forecast                     86.6%               87.7%                  X
1
  Lead-time is the interval between when a warning is issued and when an event reportedly occurs.
2
  The probability of detection shows the fraction of all severe events (for example, tornadoes, thunderstorms, heavy
snowfall) for which warnings were issued. Attempting to achieve a high probability of detection by issuing more
warnings would tend to have the undesirable effect of increasing the false alarm ratio.




                                                         7
U.S. Department of Commerce                                                 Final Report IPE–14423 

Office of Inspector General                                                             March 2002 



WFO needs guidance to help it issue more timely flash-flood warnings

The Chanhassen office’s hydrology program is a critical activity. Located in the Upper
Mississippi River Basin, the WFO provides vital watches, warnings, and advisories to protect
life, property, and commercial navigation on that part of the river. Since 1983, the office has had
an on-site service hydrologist4 to oversee hydrology operations, train office personnel on flash
floods and flood warnings, maintain flood forecast points, issue flood warnings, advisories and
forecasts, and handle relations with emergency management officials and the media during flood
events.

Statistics for the flash-flood program’s false alarm rate and probability of detection compare
favorably to the average for all other Central Region WFOs. However, the Chanhassen WFO
provided a significantly shorter lead-time for issuing flash-flood warnings. According to
Chanhassen’s forecasters, this is due to a difference of opinion between them and other NWS
officials as to when a flash flood is determined to be occurring; the range of opinion varies
between the time when rainfall begins to the time when roads are flooded. NWS has criteria that
WFOs can use to document the beginning of a flash flood and leaves the decision of when to
issue a warning to the WFOs. According to the Weather Service Operations Manual, flash-flood
warnings are to be issued when flooding is imminent. All WFOs have similar criteria on how
they should predict or forecast flash-flood events. However, the Chanhassen WFO has not been
performing as well as the average of other Central Region WFOs in issuing flash-flood warnings.
In our discussions with officials at the WFO, NWS Central Region and NWS headquarters, they
acknowledged the lack of specific criteria to be used when determining whether to issue flash-
flood warnings, and none could further clarify when a forecaster should determine that a flash-
flood warning should be issued.

The variables for WFO forecasters to consider when issuing such warnings depend on the
topography of the area in question and whether the area is rural or urban. For example, the NWS
Central Region includes the states of Wyoming and Colorado, and part of Kentucky—all of
which have mountains or valleys that are susceptible to flash-flood conditions. The region also
includes several Midwestern states that have comparatively flat terrains. Therefore, some WFOs
in canyon areas may issue a flash-flood warning when heavy rains begin, whereas the
Chanhassen WFO, in a flatter terrain, may not issue a warning until rainfall has accumulated and
is significant enough to cause flooding on city streets.

The effect of a shorter lead-time is that the public has less advance notice in which to respond to
the warning. We believe that the MIC, working with the Central Region, should strive to
improve on the short lead-time record for the Chanhassen WFO. We urge NWS officials to
provide the Chanhassen forecast staff with more useful guidance to use in determining what
conditions must be present to issue flash-flood warnings for their specific terrain.




4
    Only selected WFOs have on-site service hydrologists.


                                                            8

U.S. Department of Commerce                                                  Final Report IPE–14423 

Office of Inspector General                                                              March 2002 





In their response to our draft report, agency officials concurred with our recommendation that
NWS headquarters and the Region work with the Chanhassen forecasters to determine how best
to improve the WFO’s flash-flood warning lead time. NWS officials stated that they have made
changes to the Weather Service Operations Manual regarding the issuance of warning products
for heavy rains occurring during existing river flooding. This is expected to significantly reduce
the use of flash-flood warnings during river flooding events. In addition, NWS plans, by April
30, 2002, for the WFO Chanhassen forecast staff and service hydrologist to have completed case
studies with the Weather Event Simulator to increase their proficiency during flash flood
situations. Furthermore, Central Region Headquarters has collected a listing of best practices
used by offices that have been very successful in the issuance of flash-flood warnings. The MIC
and staff will incorporate the best practices into the Chanhassen WFO operation.

B.     State weather forecast product may be unnecessary

The Chanhassen WFO issues a weather forecast for the entire State of Minnesota. Several of the
forecasters stated that they believe the WFO should eliminate this forecast product because the
information is available to users in other WFO products.

Most WFOs issue forecasts only for their county warning area. Because Chanhassen is the NWS
liaison office for the State of Minnesota, it issues a forecast for the state, comprised of forecasts
from the five other WFOs (Duluth, Minnesota; Grand Forks, North Dakota; Sioux Falls and
Aberdeen, South Dakota; and La Crosse, Wisconsin) whose county warning areas include other
portions of Minnesota. The statewide forecast product is very general, by necessity, because it
covers varied climatology. Local users of weather products in the Twin Cities area, however,
find the statewide information useful when making weekend travel plans. The specific
information these users seek, however, is readily available through a variety of sources. For
example, the user may access the websites of Chanhassen and the other WFOs, the Chanhassen
WFO ring-through telephone line, NOAA Weather Radio, or the local television media to get
statewide weather reports. However, there remain a small segment of users, such as media wire
services or public radio stations, which have a statewide broadcast responsibility who prefer this
forecast product. WFO officials told us that the Central Region is conducting a pilot test in
Kentucky on the use of a digitized state forecast product, which may satisfy the needs of local
users while also reducing the resources needed to produce a state forecast product. The MIC and
the Central Region management should evaluate the costs and benefits of producing the state
forecast product and make a decision as to whether the WFO should continue to issue it in its
current format, issue it in a revised format, or eliminate the product entirely.



In their response to our draft report, agency officials concurred with our recommendation. NWS
officials stated that they have evaluated the costs and benefits of producing the state forecast and
concluded that it was beneficial to continue issuing it. This decision was based on NWS’s



                                                 9

U.S. Department of Commerce                                                Final Report IPE–14423 

Office of Inspector General                                                            March 2002 



findings that the cost of providing the state forecast product was minimal, and there remains
customer demand for it.




                                               10

U.S. Department of Commerce                                                  Final Report IPE–14423 

Office of Inspector General                                                              March 2002 



II.    Office Outreach Program Is Effective

State and local emergency managers in the Minneapolis/St. Paul metropolitan area help citizens
in their communities prepare for potential natural disasters, such as floods, tornadoes, blizzards,
hail, and other emergencies that may affect public safety. WFO staff work with these managers
to help increase public responsiveness to warnings and critical weather, better prepare users for
extreme weather events, develop and strengthen partnerships, and increase user feedback to
enhance NWS services.

While in Minnesota, we met with several state and local emergency managers who spoke highly
of the cooperation and service received from the Chanhassen WFO. According to the officials,
the Chanhassen WFO staff are available to discuss weather forecasts, conduct demonstrations,
and provide general assistance. In addition to being generally pleased with the timeliness and
quality of the office’s forecasts and warnings, the emergency managers commended the WFO
staff on their outreach program. For example, several emergency managers stated that WFO
employees volunteered their time to speak at conferences and Skywarn and Rotary Club
meetings, and they hold positions on various local weather-related boards.

In November 1999, the NWS published its Fiscal Year 2000 Outreach Action Plan, which
outlines the steps that various agency components, including the WFOs, should consider in
accomplishing their outreach goals. The Chanhassen WFO and its partners work well together in
pursuing these goals.

Our review of various documented activities during fiscal year 2001 showed that the office
implemented the action items in its plan. For example, the office staff participates in a multitude
of school-related events to increase students’ awareness of meteorology and weather safety. In
fiscal year 2001, the office staff participated in 3 high school Career Days with total attendance
over 300, provided 10 office tours to over 140 students, and made 3 weather safety presentations
to 390 children at safety camps. The staff also supports students in other ways, such as career
development workshops, and mentoring, to name a few.

The Chanhassen WFO staff also reaches out to help the community in several other ways. For
example in fiscal year 2001, they presented several safety talks before various social clubs and
community groups, and taught 81 Skywarn classes with a total of 2,666 attendees. The office
also works hard to incorporate diversity, which is a major Central Region initiative, into its
outreach program by providing tours to minority groups and participating in other minority-
sponsored activities. For example, an office employee represented the WFO as an exhibitor
during Black History Month at the Minnesota Science Museum. The office has also provided
tours to various other groups and organizations (for example, the Boy Scouts, Girl Scouts and
senior citizen groups). The office is currently working on its fiscal year 2002 outreach action
plan.

The WFO also has good relationships with media representatives, which is important because the
media are a key element in the WFO’s outreach and information dissemination efforts. The
media representatives with whom we spoke thought highly of the WFO’s services and


                                                 11

U.S. Department of Commerce                                              Final Report IPE–14423 

Office of Inspector General                                                          March 2002 



responsiveness. Although they are meteorologists themselves, they value the insight and
professional opinions of the WFO staff. During fiscal year 2001, the staff gave more than 50
interviews to television, radio, and newspaper representatives on subjects ranging from snow
measurements to the Winter Storm Severity Index to Severe Weather Awareness Week and other
general office weather services and products.

Generally, the office’s external outreach program has been effective in improving the citizens’
awareness of weather terminology, severe weather risks and precautions, and NWS products and
services in the WFO’s CWA. In addition, this program allowed the WFO to form excellent
relationships with emergency officials, the media, and schools as a means of enhancing the
office’s public awareness activities and helping to improve the local communities’ knowledge of
weather conditions and readiness for weather emergencies.




                                              12

U.S. Department of Commerce                                                Final Report IPE–14423 

Office of Inspector General                                                            March 2002 



III.   Skywarn and Cooperative Observer Programs Are Well Run

The Chanhassen WFO’s Skywarn and Cooperative Observer Programs are active and effective.
Skywarn is an NWS program that, in collaboration with amateur radio operators, trains private
citizens to become volunteer weather spotters. Skywarn spotters provide forecast offices with
timely, accurate severe weather reports. The Cooperative Observer Program is a nationwide
weather and climate-monitoring network of volunteers. Each volunteer observer regularly
reports temperature and rainfall amounts to the local WFO so that forecasts and warnings can be
issued and the climate of the United States can be recorded to help improve the accuracy of the
agency’s forecasts. However, the Chanhassen staff stated that they had concerns about future
staff resources to support the observer program.

A.     Skywarn program operates effectively

We found that Chanhassen’s Skywarn program is well run and effective in carrying out its
mission with the local community. In addition to seeking the help of amateur radio operators,
the WFO staff enlists the aid of local law enforcement and emergency management personnel to
become volunteer spotters. The WFO staff also holds orientation training for new spotters to
acquaint them with the weather patterns and conditions that develop into severe storms events,
such as tornadoes. An invaluable tool for the training programs is video footage of actual
tornadoes in Minnesota. The Chanhassen staff has made a concerted effort to use videos of
severe storms and updates these videos approximately every two years. The Chanhassen staff is
able to train several hundred spotters each year by teaching advanced spotters to train new
recruits. We believe the staff has developed a good orientation program for new spotters.

B.     Cooperative Observer Program faces changes

The Chanhassen WFO’s Cooperative Observer Program is also well run but faces potential
changes in its staff resources. Although the WFO has well-trained individuals managing the
program—one data acquisition program manager (DAPM) and five hydrometeorological
technicians (HMTs)—it faces attrition. NWS headquarter officials have decided to (1) phase out
the remaining DAPM positions nationwide when they become vacant, and (2) reduce, through
attrition, the number of HMTs at each WFO to a maximum of three. According to the MIC, as
the two “excess” HMTs positions become vacant, they will be replaced by meteorological
interns. These interns would, in addition to their forecast duties, assume some of the
responsibilities previously held by the HMTs in managing the Cooperative Observer Program.
Currently, the DAPM and the senior HMT share responsibility for visiting observer sites and
replacing and repairing weather gages. The other HMTs, in addition to their shift work, handle
the bulk of the administrative work for the Cooperative Observer Program.

Many Chanhassen staff expressed concern that such a staffing scenario would leave the program
short-handed in the future and would result in fewer visits to volunteer observers to maintain and
replace gages. While the office appears to have adequate resources now to manage the program,
it may experience a decline in support in the future. Although the hiring of meteorological
interns should offset this decline, they will require training to assume their new duties.


                                                13

U.S. Department of Commerce                                                Final Report IPE–14423 

Office of Inspector General                                                            March 2002 





In their response to our draft report, agency officials concurred with our recommendation to take
appropriate action to ensure that the Cooperative Observer Program will be adequately
supported. NWS officials stated that the program would be adequately supported if the WFO
maintains a minimum of four staff members in the data acquisition unit, including three
individuals in the DAPM or HMT job series and one meteorological intern. NWS further stated
that should turnover occur, new staff members would receive Cooperative Observer Program
training at the National Weather Service Training Center in Kansas City, Missouri.




                                               14

U.S. Department of Commerce                                                Final Report IPE–14423 

Office of Inspector General                                                            March 2002 



IV.    Office Training Program Could be Improved

Training and research projects are important ways that WFOs develop their staff and help them
sharpen their forecast proficiency. The MIC at each WFO is responsible for ensuring that each
staff member is properly trained and has the tools to successfully perform his or her job. Each
WFO has a Science and Operations Officer (SOO), whose responsibility it is to carry out the
training and research program in the office. The Chanhassen SOO stated that the staff’s training
needs were his primary focus at Chanhassen, and he puts less emphasis on research efforts.

Prior to our visit, the Chanhassen WFO did not have a structured training plan. Its training
efforts were based on a very generic training program outlined in the NWS Annual Operating
Plan. We found that the training program needs to be improved by (1) informing employees of
available training and training requirements, and (2) completing individual development plans
for each WFO employee.

In our interviews with the Chanhassen staff, some members expressed frustration with the dearth
of information available about required and recommended training for meteorologists and
HMTs. In addition to in-house training, we identified that training is available for NWS
employees and is offered at several locations, including the Central Region headquarters, the
NWS Training Center in Kansas City, Missouri, NWS headquarters in Silver Spring, Maryland,
and at the Department of Agriculture’s (USDA) Graduate School in Washington, DC. Training
and research opportunities may also be available at local colleges and universities. We believe
the MIC and the SOO should ensure that all staff have access (either in hard copy or via Internet)
to a comprehensive list of all available training courses that are recommended or required.
Subsequent to our visit, the MIC and the SOO have compiled a list of all available training
offered by NWS, USDA, and the Federal Executive Board, and have provided us with a copy of
their training plan. We have reviewed the plan and believe that it sufficiently addresses the
training needs of the staff, and provides information on available training courses.

Furthermore, our discussions with the forecast staff revealed that only the MIC had a completed
individual development plan (IDP). The MIC and the SOO stated that the initial drafts of IDPs
prepared by the staff were incomplete and had to be returned to them for revisions. They told us
that the IDPs were to be completed and implemented by December 2001, and will be updated on
a fiscal year basis to coincide with the WFO’s operating plan. Subsequent to our visit, we have
been told that IDPs have been developed for the other members of the WFO staff. The MIC
should ensure that all Chanhassen WFO employees have completed IDPs and start implementing
them immediately.



Agency officials concurred with our recommendations to complete IDPs for all Chanhassen
WFO staff members and provide them with information on and access to training programs.
NWS officials stated that the list of training courses will be provided to all employees by March
31, 2002, and IDPs for all employees will be in place by April 30, 2002.



                                               15

U.S. Department of Commerce                                                 Final Report IPE–14423 

Office of Inspector General                                                             March 2002 



V.     Maintenance of Information Technology Resources Is Good

The information technology resources for the Chanhassen WFO fall under the management of
the office’s Electronic Systems Analyst (ESA), who supervises two electronic technicians. In
addition to being responsible for the office’s IT security, the ESA works with the technicians to
maintain and upgrade the office’s computer hardware and software and the WFO’s radar.

The ESA serves as the Information Technology Officer (ITO) for the Chanhassen WFO. We
found the office had an approved IT security plan, a risk analysis, and a contingency plan in
place. Every staff member is required to review the plan with the MIC once a year and initial all
updates to the plan to attest that they have reviewed it.

Although we believe the ESA has been able to manage the IT security resources and
environment at Chanhassen, he stated that it is at times difficult to keep abreast of ongoing
maintenance of electronic systems and IT security issues for the office. He attributes the
difficulty to minor emergencies that arise. To remedy the situation, the ESA developed trouble
guides to help the forecasters trouble-shoot minor software or systems problems that they would
normally call on the ESA to fix. He acknowledged that, with the growing emphasis on IT issues
in general and the emphasis on IT security in particular, it would be helpful to have a full-time
ITO in place in the near future. Central Region officials have told us that when the next DAPM,
HMT, or meteorological intern leaves, the WFO will be able to hire an ITO to replace that
person. In an interview with an NWS headquarters official, we confirmed that NWS plans to
eventually have a full-time ITO at each WFO nationwide. As of November 2001, NWS had
ITOs at 55 of the 121 WFOs.




                                                16

U.S. Department of Commerce                                                      Final Report IPE–14423 

Office of Inspector General                                                                  March 2002 



VI.     Administrative Operations Lack Adequate Internal Controls

Our review of the WFO’s administrative operations included its use of purchase cards and
convenience checks, personnel, time and attendance, procurement, maintenance of accountable
property, and use of government vehicles. We found numerous internal control deficiencies in
administrative and management practices at the Chanhassen WFO. Specifically, we determined
the following: (1) office purchase card holders did not follow NOAA policies and regulations on
proper use of purchase cards, (2) convenience checks were improperly used to pay some WFO
costs as well as those incurred by other offices, and (3) there was a lack of adequate internal
controls over accountable property.

A.      Office staff failed to follow Commerce and NOAA regulations for purchase cards

At the time of our review, the Chanhassen WFO failed to (1) follow purchase card regulations,
(2) use required sources of supply for purchases, and (3) demonstrate a need for the current
number of purchase cardholders.

Office did not properly document its purchases or follow other purchase card regulations

In our review of Chanhassen’s purchase card usage in fiscal years 2000 and 2001, we found that
most cardholders did not maintain descriptive purchase order logs. Rather, they had vague
descriptions, such as “office supplies,” “building supplies,” or “training.” Cardholders also did
not consistently attach original receipts or supporting documents to the purchase card statements
for the MIC to review, as required. In addition, we were told that the MIC had been using a
signature stamp to sign official documents, but had destroyed it just prior to our inspection visit,
upon the recommendation of the Central Region office. The MIC did not ensure that there were
adequate internal controls over purchase cards, nor did he provide adequate oversight to ensure
that the cardholders adhere to regulations and procedures related to purchase card use. The lack
of adequate controls provides the opportunity for theft and waste of government resources.
During our review of the Chanhassen WFO, we also found an example of improper personal use
of a government purchase card. This matter was first brought to our attention by the NWS
Central Region, which visited the WFO just prior to our inspection.

The Commerce Acquisition Manual5 clearly states that purchase cards are to be used for official,
authorized purposes only; that purchase cards should be kept in a secure place; and that it is the
responsibility of the approving official to ensure that the cards are used only for official
purposes. It also requires that cardholders maintain a purchase card ordering log for all
transactions, include detailed descriptions of the items purchased, and attach applicable
mandatory approvals. This record should include a clear description of the itemized purchases,
payments, returns, and credits; appropriate supporting documentation, including sales receipts;
and the account statements with the MIC’s approval signature. In addition, we recommend that
the MIC consider having a centrally controlled log to help eliminate duplicate purchases. This

5
  Commerce Acquisition Manual, April 2000, Part 1313.301, “Department of Commerce Purchase Card
Procedures.”


                                                   17

U.S. Department of Commerce                                                         Final Report IPE–14423 

Office of Inspector General                                                                     March 2002 



would also make it easier for the MIC to track his budget and the office’s procurement activity,
allow for better inventory reconciliation, and, in turn, help save money. The MIC should
carefully review and sign all purchase card statements and report any incidents of misuse of the
card by an employee to the Central Administrative Support Center (CASC) Head Contracting
Officer. Lastly, all office cardholders, including the MIC, although they have certified that they
have been trained, should receive additional training on the duties and responsibilities of
purchase card users and the approving official.



In response to our draft report, agency officials concurred with our recommendations to improve
oversight and controls over the use of purchase cards and to provide additional training to
purchase card users and the approving official. NWS officials stated that Administrative
Management Division (AMD) officials from the Central Region Headquarters (CRH) would
provide in-depth training in purchase card use to WFO Chanhassen purchase cardholders. In
addition, the number of purchase cardholders has been reduced from 9 to 6, and purchasing
authority of 5 of the 6 remaining cardholders has been reduced to $1 pending further review of
previous purchasing activity and future requirements. The CRH AMD will also review purchase
card statements on a recurring basis for all regional offices and the CRH Systems Operation
Division will approve purchases made by the one remaining WFO cardholder.

WFO purchase cardholders failed to use required sources of supply

The NWS Central Region Administrative Guide6 specifically states that cardholders are required
to acquire supplies and services from required sources if they are capable of providing them. In
our review of purchase card statements, we found examples of Chanhassen WFO cardholders
buying office supplies from commercial sources such as Target, Office Max, and Office Depot
retail stores. The MIC stated that he did not know government purchase cardholders were not
normally permitted to shop at these stores for business purchases. We determined that the office
could have adhered to the NWS guidelines because the supplies purchased at commercial
sources could have been ordered through GSA or another required source of supply. We found
no evidence that the required sources of supply were considered for these purchases.



In response to our draft report, agency officials did not agree with our finding that WFO
purchase cardholders failed to use required sources of supply. NWS officials stated that it is the
agency’s position that if a supply requirement cannot be met through the Federal Prison
Industries, Inc. (FPI or trade name UNICOR), Javits-Wagner-O’Day (JWOD) Program, or
General Services Administration (GSA) Supply Catalog, the WFO is authorized to use the
vendors on the GSA Federal Supply Schedules without obtaining a waiver from GSA. NWS

6
  Section C of the National Weather Service Central Region Administrative Guide, supplements both the Commerce
Acquisition Manual, Part 1313.301, and the Federal Acquisition Regulation, Part 8.001, relating to the use of
purchase cards.


                                                     18

U.S. Department of Commerce                                                  Final Report IPE–14423 

Office of Inspector General                                                              March 2002 



officials also disagreed with our statement that cardholders are not permitted to shop at Office
Depot without first requesting a waiver from GSA. They stated that the Office Depot contract is
on an optional use Federal Supply Schedule.

We agree with NOAA officials that a waiver was not necessary for the WFO to make its
purchases from the Office Depot retail store. However, it must follow the Federal Acquisition
Regulation (FAR) when doing so. According to the FAR, Subpart 8.001, agencies are required,
in priority order, to purchase supplies from (1) Federal Prison Industries, Inc. (FPI), (2) products
available from the Committee for Purchase From People Who Are Blind or Severely Disabled
(NIB/NISH), (3) wholesale supply sources, such as GSA, (4) mandatory Federal Supply
Schedules, (5) optional use Federal Supply Schedules (such as the Office Depot schedule), and
(6) commercial sources (such as Office Depot retail stores). Therefore, agencies may only use
commercial sources after having determined that the needed items are not available from the
prior sources. WFO officials stated that they did not go to the required sources before going to
Office Depot to make their purchases.

Additionally, we found an example of a WFO cardholder buying furniture from Herman Miller,
Inc., instead of Federal Prison Industries, Inc., without first obtaining a waiver. The employee
stated that she believed that she had complied with regulations because Herman Miller, Inc., is
on a GSA schedule. According to the FAR, Subpart 8.6, and the CAM Section 1313, subpart
3.4, agencies purchasing furniture must obtain a clearance (or a waiver) from FPI before
furniture on the FPI schedule is acquired from other sources. We found no evidence that such
clearance was either requested or obtained.

There are an excessive number of government purchase cardholders

The WFO’s nine purchase cardholders include the MIC, the administrative support assistant
(ASA), who is also the convenience check account holder, the warning coordination
meteorologist, the data acquisition program manager, the science and operations officer, the
electronic systems analyst (ESA), both office electronic technicians, and one
hydrometeorological technician, each with a monthly purchase limit of $2,500. Based on an
analysis of the actual total dollar amount of purchase card purchases per month for seven of the
nine cardholders (excluding the MIC and ASA) for fiscal years 2000 and 2001, we believe there
are an excessive number of purchase cardholders.

Since we did not receive any purchase card statements for the MIC, we were told by CASC to
assume he had no activity on his purchase card for the above time period. We received all
purchase card statements for the ASA. However, we did not include her in our analysis of how
many purchase cards are required because of her office-wide procurement responsibility and the
use of her card to pay the utility bills. We prepared a chart (shown below) to illustrate that most
of the office’s remaining purchase cardholders had a low dollar level of purchase card purchases.
We compared the total dollar amount of actual purchases for all months in FY 2001, for each
cardholder, to the cardholder’s total monthly limit of $2,500 calculated for the entire year
($30,000). According to our analysis, the total dollar amount spent by all cardholders was
significantly lower than the maximum available spending levels for the year. An example of


                                                 19

U.S. Department of Commerce                                                                          Final Report IPE–14423 

Office of Inspector General                                                                                      March 2002 



little or no demonstrated need is that the HMT had account activity for only four months in FY
2001 totaling only $138.7
Chart 1. Bankcard Activity for Chanhassen WFO Cardholders

                                             Bankcard Activity for FY 2001
                          $30,000.00
    Total Dollar Amount




                          $25,000.00
                          $20,000.00
                          $15,000.00
                          $10,000.00
                           $5,000.00
                               $0.00
                                       WCM    DAPM   SOO            ESA      El Tech 1   El Tech 2     HMT


                                                      Activity of Cardholders


                                                     Yearly limit         Actual Usage



In addition, we identified purchases of the same types of products that were being made by the
ASA and other cardholders. For example, we found purchases by multiple cardholders,
including the ASA, for compact disks and other general office supplies (for example, pens,
pencils, folders) that easily could have been purchased by the ASA for the entire office. In
another example, we found purchases made by the electronic technicians for computer
equipment that should have been made by the ESA, who is the electronic technicians’ supervisor,
to ensure tighter controls over purchases and inventory. In our reviews of other WFOs, we found
that the ESA was the only purchase cardholder for the electronics staff. The ESA generally
made all operational equipment purchases and purchased items requested by the electronic
technicians.

Based on our analysis, we believe that there are an excessive number of purchase cardholders in
the office. In accordance with the NWS Central Region Administrative Guide’s August 2000
Monthly Update, to ensure adequate control of purchases and to minimize the number of
purchase card statements that the MIC must review, the office should reduce the number of
cardholders by eliminating those with little or no activity for the past year and centralize the
responsibility for ordering general office supplies and computer or electronic equipment with the
ASA and the ESA.




7
 We examined the kinds and locations of purchases made by the HMT and found that he made local purchases that
were primarily offices supplies that should have been obtained from required supply sources by the ASA.


                                                               20

U.S. Department of Commerce                                                      Final Report IPE–14423 

Office of Inspector General                                                                  March 2002 





In response to our draft report, agency officials concurred with our recommendation and, as
noted previously, have reduced the number of cardholders from nine to six

B. 	    The WFO inappropriately used convenience checks to pay for some WFO expenses as
        well as those of other NWS offices

During our review, we found that the Chanhassen WFO (1) did not properly follow convenience
check regulations, and (2) inappropriately used convenience checks to pay vendors for training,
publications, and a server license for the National Operational Hydrologic Remote Sensing
Center (NOHRSC) staff, which are collocated with the WFO staff.

Convenience checks were not adequately controlled and used in accordance with regulations

Based on our review of a sample of the convenience checks written in fiscal years 2000 and
2001, we found that the WFO’s administrative assistant had written several checks to vendors
who accept government purchase cards or purchase orders. The MIC approved all of the checks
that were written. Several checks were written to a local cable company for services rendered to
the office. When we contacted the cable company, they said that they accept government
purchase cards for payment and do not charge a fee for using a purchase card. The WFO,
however, must pay a 1.25% cash advance fee to Citibank for each convenience check.

During our review of the Chanhassen WFO, we also found an example of improper personal use
of a convenience check. This matter was first brought to our attention by the NWS Central
Region, which visited the WFO just prior to our inspection. We also found that the MIC had not
ensured that there were adequate internal controls over convenience checks. In addition, the
convenience checks were not maintained in a locked box, as required by the regulations. The
MIC also did not provide adequate oversight to ensure that the account holder adhered to
procedures. The lack of adequate controls provides the opportunity for potential theft and waste
of government resources.

The Commerce Acquisition Manual clearly states that convenience checks are to be used for
official, authorized purposes only; that checks should be kept in a secure place; and that it is the
responsibility of the approving official to ensure that the checks are used only for official
purposes. It also requires that the account holder maintain a convenience check order log for all
transactions, include detailed descriptions of the items purchased, and attach applicable
justifications for all transactions.8 Furthermore, NWS Central Region Headquarters (CRH)
guidance states that, “upon receipt of VISA checks, the account holder must secure the checks in
a locked box or a locked file cabinet.”9


8
  Commerce Acquisition Manual, April 2001, Part 1313.301, “Department of Commerce Purchase Card
Procedures.”
9
  Imprest Fund Visa Checks Procedures issued by CASC in an e-mail from Central Region Headquarters AMD
chief to all WFO MICs and ASAs, dated February 22, 1999.


                                                   21

U.S. Department of Commerce                                                     Final Report IPE–14423 

Office of Inspector General                                                                 March 2002 



In addition, the Central Region Guide provides that convenience checks cannot be used for the
following: (1) travel advances; (2) to pay vendors that accept the government purchase card,
purchase orders, blanket purchase agreements, Purchase Order-Invoice-Voucher Forms (SF 44s),
or for items offered through the General Services Administration; (3) interim receipts prior to the
purchase being made; (4) Cash-In-A-Flash (a Commerce Department employee incentive
program); or (5) to reimburse employees, individuals or vendors.

We found that the ASA wrote 14 convenience checks for reimbursements to employees of the
WFO, River Forecast Center (RFC), and Central Region Headquarters in fiscal years 2000 and
2001 (see Table 2). The ASA and the MIC stated that several of the checks were written to
reimburse employees for purchases that did not have prior approval. This is contrary to
departmental guidance. As shown in Table 2, one WFO employee was reimbursed for training
he received at Hennepin Technical College. The MIC told us that the employee initially paid for
the course himself, but the MIC later authorized the ASA to write a convenience check to
reimburse him. It should be noted that the college accepts purchase cards as well as convenience
checks for payment, and the employee is also a government purchase cardholder.

Table 2. Convenience Check Reimbursements to Chanhassen WFO, River Forecast Center, and NWS
Central Region Headquarters Employees
  Date           Payee          Cost      Receipt                       Description
                                                    K-tech Mobile installed communication equipment in
   12/1/99 CRH Employee          $85.00    Yes      SFT vehicle
    2/3/00 WFO Employee           20.03    Yes      Slides were made at Kinko's
    6/5/00 WFO Employee          238.49    Yes      Training taken at Hennepin Technical College
    3/7/00 WFO Employee          664.75    Yes      Bought WFO logo shirts as incentive awards
                                                    Purchased airport security badge renewal and
    6/8/00 CRH Employee           10.00    Yes      parking fee
  10/24/00 WFO Employee           15.99    Yes      Office Max purchases
    8/3/00 WFO Employee           22.00    Yes      Purchased 2 airport badges & short-term parking
10/3, 12/3,
  12/14/00 RFC Employee           72.33    Yes      Target, Office Depot & National Camera purchases

   3/20/01 WFO Employee           23.50    Yes      Amateur Radio Club conference registration
    4/4/01 CRH Employee           13.00    Yes      Faxed 11 pages from a rural convenience store
   3/30/01 WFO Employee          150.00    Yes      Payment for 2 staff to attend leadership conference
   5/18/01 WFO Employee           47.24     No      None available
                                                    Contractor installed radio equipment for amateur
   5/11/01 WFO Employee           80.00    Yes      radio program
    6/4/01 CRH Employee           11.00    Yes      Purchased airport badge and parking

In addition, many of the other purchases for which employees were being reimbursed could have
been made with a purchase card or a convenience check, if purchase cards are not accepted. For
example, an employee was reimbursed $664.75 for Chanhassen WFO logo shirts he purchased as
incentive awards. In this case, the employee could have used his government purchase card to
buy the shirts or asked the ASA to write a convenience check to the vendor for the shirts if the
vendor would not accept the purchase card. When asked about this, the employee stated, “I just


                                                 22
U.S. Department of Commerce                                                                    Final Report IPE–14423 

Office of Inspector General                                                                                March 2002 



did not use another form of payment.” The employee also stated he was not aware that
convenience checks cannot be used to reimburse staff members.

In summary, the MIC and ASA should be trained on the rules and regulations regarding the use
of government convenience checks and should ensure their proper use and documentation. All
WFO account holders and managers should also be knowledgeable about the policies and
procedures governing the use of convenience checks and use them accordingly. In particular,
they should only use convenience checks when (1) the vendor will not accept the Government
Purchase Card, purchase orders, or SF 44s; (2) vendors require payment by cash or check; and/or
(3) vendors do not have the capability to bill the agency. The WFO should not use convenience
checks to reimburse employees under any circumstances. In addition, the MIC must also inform
the CASC Head Contracting Officer if any misuse is found.



In response to our draft report, agency officials concurred with our recommendation to tighten
controls over the use of convenience checks. NWS officials stated that Administrative
Management Division officials from the Central Region Headquarters would provide in-depth
training in convenience check use to appropriate WFO staff. They also noted that the ASA’s
convenience check account has been cancelled. All WFO requirements for convenience checks
will be reviewed and checks will be issued directly by the Central Region AMD.

WFO inappropriately used convenience checks to pay expenses of NOHRSC employees

We found additional examples of inappropriate use of government convenience checks that
occurred when the ASA wrote checks for the National Operational Hydrologic Remote Sensing
Center (NOHRSC) staff because that office does not have convenience checks.

Table 3. WFO Convenience Check Payments for NOHRSC Expenses
  Receipt Date           Vendor           Amount                Description
       10/30/00 University of Minnesota   $879.41 Payment for employee training
         12/4/00 University of Minnesota    829.54 Payment for employee training
       12/21/00 University of Minnesota     859.54 Payment for employee training
                                                   Payment for employee for NcFTPd
                 10
         7/24/01                            199.00 Server license
                                                   Payment for bulletin and journal for
         7/25/01 American Met. Society      105.00 employee

As previously mentioned, the NOHRSC is a NWS office located in the same facility as the WFO
but it is not a part of the WFO. In fiscal year 2001, the ASA wrote five checks to pay for
training and other items for NOHRSC employees, as shown above in Table 3. This practice
violates proper internal controls because the WFO is not responsible for the NOHRSC, and each
office has different transaction tracking and approval requirements. For example, while WFOs
are required by CASC to submit a form SF-180 to request payment for training, the NOHRSC is

10
     Insufficient information to identify the vendor or the nature of the services rendered.


                                                            23

U.S. Department of Commerce                                                  Final Report IPE–14423 

Office of Inspector General                                                              March 2002 



not required to submit such a form to CASC. Accordingly, the WFO should no longer use its
convenience checks for other offices.



In response to our draft report, agency officials disagreed with our finding concerning the use of
convenience checks to pay the expenses of NOHRSC. NWS officials stated that this practice
does not violate proper internal controls as long as proper approval procedures and accounting
codes and/or practices are being followed. Furthermore NWS officials said that “using a single
check-writer for colocated [sic] offices is an efficient practice that is in conformance with the
current DOC/NOAA/NWS focus on minimizing the number of check writers in the agency.”

We agree with NOAA’s position that using a single check writer for collocated offices may be an
efficient practice. However, the check writer must obtain proper documentation from the other
office to show that a transaction has prior approval and is appropriate. For example, an approved
training request form and proper funds certification would satisfy this requirement for training
payments. This was not done for the NOHRSC transactions cited in this report. As noted above,
the Central Region is now issuing convenience checks for the Chanhassen WFO. In the event
that the account is reinstated at Chanhassen, appropriate purchase and approval procedures
should be used.

C.     WFO lacks adequate controls for maintaining accountable property

The Chanhassen WFO does not have an adequate system of control and accountability for
personal property. As part of our review of the WFO’s administrative controls, we examined a
sample of items on the office’s inventory list and were unable to verify that all items selected
were in the office. We found that the office’s inventory list was incomplete, and some sensitive
items were not secured.

WFO inventory controls need to be strengthened

We found that controls over property were inadequate, resulting in both missing equipment and
accountable property not being included on the official inventory. Specifically, we found that
the office’s inventory records were not accurate. The WFO maintains two property lists—an
unofficial office list and an official NOAA Personal Property Physical Inventory Report, which
is tracked by the National Finance Center (NFC). The NFC list is the primary inventory system
used by NOAA to track all of its accountable property. NOAA’s policy permits line offices to
maintain auxiliary lists, but not as a substitute for the official list of property. Unfortunately,
Chanhassen’s two lists are not consistent; some property appears on one list but does not appear
on the other. For example, we found a TV/VCR combination unit, which is considered
accountable property, on the office list but not on the NFC list.

Prior to our visit, we received an inventory report dated March 8, 2001, signed by the MIC,
certifying, “that all personal property items are listed on the Personal Property Inventory Report,
and that the items as indicated on the report were on hand.” During our onsite inventory review,


                                                24

U.S. Department of Commerce                                                        Final Report IPE–14423 

Office of Inspector General                                                                    March 2002 



however, the MIC stated that he had not actually reviewed the inventory and did not know what
property was on the list. Although the MIC is the property custodian, he delegated personal
property oversight to the ESA and ASA, and they had informed him that the property could be
accounted for. He also did not know that the items included on the list were missing or where
the missing items were, including 3 laptops listed on the office inventory. Eventually, the ESA
was able to locate the missing laptops—one used by the fire weather meteorologist and two used
by the electronic technician staff.

According to departmental regulations and NWS guidelines, the property custodian is
responsible for maintaining inventory, which includes ensuring (1) effective administration and
maintenance of a system of control and accountability for personal property; (2) that physical
inventories are taken, records are reconciled, and discrepancies are investigated and resolved;
and (3) that property is fully utilized and safeguarded from misuse or theft.11

During our random property check, we were able to identify sensitive items that were on hand
but not listed on any property record, and items listed on a record but not on hand. Such items
include laptops, scanners, walkie-talkies, external disk drives, an automatic folding machine, and
a laser printer. In one example, we were told that the laptop identified on the inventory list was
not found because it was old and had been disposed of. We did find a laptop that was not on the
inventory list. We were told that it was acquired to replace the missing laptop; however, we
found no documentation to support either transaction. We also did not receive explanations for
the other aforementioned items. The office maintains property transaction records, but we were
not able to find records for some of the property that had been purchased or declared as excess.

Furthermore, while trying to verify whether property items were properly maintained, we
observed that some sensitive items were not secured. Specifically, we found a handheld film
scanner on a desk in the back work area of the WFO that could easily have been stolen or
misplaced. Chapter 4 of the Department’s Personal Property Management Manual defines
sensitive items as “non-expendable items that may be converted to private use or have a high
potential for theft.” It requires supervisors to be responsible for the security of personal property
and to use a responsible method to ensure its accountability. The MIC should secure all sensitive
property, such as laptops, digital cameras, handheld scanners, and other items that could easily
be misplaced or stolen and ensure that they are adequately inventoried and controlled.
According to departmental regulations, as the property custodian, the MIC is responsible for all
of the office’s accountable property. He should have knowledge of the governing regulations
and ensure that the people selected to track and maintain property do so in accordance with those
regulations. The MIC and appropriate staff should obtain refresher training on maintenance and
oversight of accountable property.




11
     Department of Commerce, Personal Property Management Manual, section 1.204.



                                                     25

U.S. Department of Commerce                                                Final Report IPE–14423 

Office of Inspector General                                                            March 2002 





In response to our draft report, agency officials concurred with our recommendation. NWS
officials stated that Administrative Management Division officials from the Central Region
Headquarters would provide in-depth training on accountable property management to the MIC,
ASA, and other appropriate members of the WFO staff, and will inspect all procedures in place
during their on-site training inspection. The Regional staff will also conduct follow-up reviews
on the handling of accountable property and other administrative functions at the Chanhassen
WFO.

Office has excess computer equipment

The Chanhassen WFO stores excess computers, printers, external disk drives, and other unused
IT equipment in the electronics technicians’ workshop and the supply room. The office has been
lax in disposing of such surplus equipment.

According to the Department’s Personal Property Management Manual:

     “all property (whether accountable or not) that is no longer needed in an office
     should be turned in to the property custodian, together with Form CD-50, ‘Personal
     Property Control’ or CD-509, ‘Property Transactions Request’ for redistribution or
     disposal. Such forms shall be used to make changes to the records and accounts for
     accountable property, and should also be used to establish records of property
     stored for subsequent redistribution or disposal.”

Currently, the office is maintaining equipment that could be used by others and that equipment is
occupying space that could be used for other purposes. The office should declare as surplus,
dispose of, or return to the regional office all excess equipment, according to the procedures set
forth in the Department’s manual and NWS policy.



In response to our draft report, agency officials concurred with our recommendation. NWS
officials stated that the Chanhassen MIC has proceeded to review all accountable property to
ensure the accuracy and completeness of the official property records. Furthermore, the MIC is
developing procedures to secure sensitive items and provide a mechanism for staff to check out
such items for official use. Finally, the MIC is proceeding with adding accountable property to
the inventory and properly disposing of surplus property.




                                               26

U.S. Department of Commerce                                                          Final Report IPE–14423 

Office of Inspector General                                                                      March 2002 



VII.    Regional Oversight Should Be Improved

We reviewed the frequency of WFO station inspections and administrative reviews conducted by
the Central Region Headquarters (CRH). Although the CRH staff claims to offer management
support and oversight to its WFOs through annual regional management conferences, monthly
teleconferences, e-mail updates, monthly administrative updates, and the Central Region
Administrative Guide (via their regional intranet), they failed to conduct station inspections or
on-site reviews of the Chanhassen WFO’s management, program, technical and administrative
operations.

Station inspections are internal NWS reviews that, among other things, evaluate WFOs’
adherence to NWS policies and procedures in various areas, including systems and equipment,
the upper air program, and surface observations. According to the Weather Service Operations
Manual, Chapter B-66, regional personnel are required to conduct routine comprehensive visits
of WFOs at least once every 12 months for observation programs and radar stations and at least
once every 18 months for Upper Air stations.

The regional office staff told us that they have never conducted formal reviews of the WFO’s
program and technical operations. There were three internal reviews conducted of the WFO’s
Station Instructions, the Station Duty Manual, the Service Programs, and the Warning
Coordination and the Hazard Awareness Programs in May 1998, November 1999, and June 2001
by the WFO Weather Service Evaluation Officer. However, these reviews were performed in
house and not by the Central Region which has oversight responsibility.

As noted above, we observed several conditions in the WFO’s administrative operations that
might have been corrected earlier if there had been adequate regional oversight. The Central
Region’s Administrative Management Division (AMD) chief stated that a lack of resources
prevented the regional headquarters from conducting a full administrative review of the WFO.
The AMD staff conducts mini reviews while in the office on training visits and full-scale reviews
if the regional office is alerted to problems by other sources. Although the AMD chief
conducted the last mini review of Chanhassen in November 1997, she stated that it was not a
complete review of the administrative functions because she was trying to resolve other issues.
We should note that the Central Region office conducted a partial administrative review just
prior to our visit in August 2001.

Prior to our review, the AMD chief told us that she conducted a phone conference in March 2000
with all Central Region MICs, HICs, and ASAs to discuss the administrative deficiencies that the
OIG had found in its review of the Raleigh WFO12 to ensure that no Central Region office would
have similar findings. She also told us that she conducted a more detailed discussion with the
ASAs during the Central Region ASA meeting in April 2000. The chief also sent a checklist to


12
   Raleigh Weather Forecast Office Provides Valuable Services but Needs Improved Management and Internal
Controls, IPE-12661, September 2000. The AMD chief acted upon the results of the OIG exit conference since the
draft report had not yet been issued.


                                                      27

U.S. Department of Commerce                                                         Final Report IPE–14423 

Office of Inspector General                                                                     March 2002 



all Central Region WFOs in June 2001 to help them prepare for an anticipated OIG review.13
We found that the Chanhassen WFO received the checklist, but did not act upon it.

Guidance and training provided to the Chanhassen WFO have not been adhered to. Clearly,
there is a need for greater regional oversight. Given the number and the nature of the problems
documented at Chanhassen WFO, we believe that CRH managers and staff should develop a
schedule to periodically visit Chanhassen, as well as their other WFOs, to review management,
program, technical, and administrative operations as part of comprehensive WFO reviews. They
should maintain records of the reviews that highlight the problems identified and should offer
recommendations to correct the deficiencies. The Region should also conduct follow-up
reviews, as necessary. Since our visit, the Central Region told us that they have developed a
schedule to conduct administrative reviews.



In response to our draft report, agency officials concurred with our recommendation about
regional oversight. NWS officials stated that Central Region senior staff would conduct regular,
periodic oversight visits of all WFOs in the region to review administrative, program, technical,
and management operations. Furthermore, the Central Region’s Administrative Management
Division (AMD) has modified its procedures and will review purchase card summary statements
and VISA check statements from all Central Region offices before they are submitted to CASC.
Finally, the checklist developed by the AMD chief, which was mentioned in the report, is being
refined and will require annual certification by each MIC and Hydrologist-in-Charge in the
Central Region.

An additional response by NWS officials took exception to the comment that the Chanhassen
WFO received the checklist “but did not act upon it.” NWS officials stated that the checklist was
reviewed by the MIC but not all corrective actions had been accomplished. During our
conversation with the MIC at the time of our visit to Chanhassen, he stated that he wanted to
wait until the completion of our review before making any changes.




13
   Administrative Evaluations Criteria/Questionnaire developed by the Administrative Management Division and
sent as an attachment to e-mail to all Central Region offices.


                                                     28

U.S. Department of Commerce                                                  Final Report IPE–14423 

Office of Inspector General                                                              March 2002 



                                    RECOMMENDATIONS


We recommend that the Assistant Administrator for NWS instruct the Central Region Director to
take the following actions:

1. 	 Work with the Chanhassen forecasters and the Central Region staff to determine how best to
     improve the office’s verification statistics by lengthening the flash-flood warning lead-time
     (see page 8).

2. 	 Evaluate the costs and benefits of producing the Minnesota state forecast, and decide whether
     the WFO should continue to issue it in its current format, issue it in a revised format, or
     eliminate the product entirely (see page 9).

3. 	 Take appropriate action to ensure that the Cooperative Observer Program will be adequately
     supported by trained staff, given the anticipated attrition of DAPMs and HMTs nationwide
     (see page 13).

4. 	 Ensure that the MIC, the ASA and all other appropriate staff receive additional training on
     the use of purchase cards and convenience checks, and accountable property (see pages 17,
     21, and 24).

5. 	 Develop a schedule to periodically visit the Chanhassen WFO, as well as other Central
     Region WFOs, to conduct comprehensive reviews of their programs, management, technical,
     and administrative operations (see page 27).

We recommend that the Central Region Director instruct the MIC to take the following actions:

6. 	 Implement completed IDPs for all employees. Ensure that employees are provided with
     information on and access to the appropriate training courses (see page 15).

7. 	 Ensure that adequate internal controls are in place for purchase cards and convenience checks
     and that they are only used for authorized purchases in accordance with departmental and
     NOAA guidelines (see pages 17 and 21).

8. 	 Determine whether the number of office purchase cardholders can be reduced (see page 19).

9. 	 Maintain an accurate, complete, and up-to-date official inventory list and secure sensitive
     property (see page 24).




                                                29

U.S. Department of Commerce                                            Final Report IPE–14423 

Office of Inspector General                                                        March 2002 



                                       APPENDIX I

                                     Acronyms for the
                                 National Weather Service

AMD            Administrative Management Division (Central Region)
ASA            Administrative Support Assistant
AWIPS          Advanced Weather Interactive Processing System
CAM            Commerce Acquisition Manual
CASC           Central Administrative Support Center
CRH            Central Region Headquarters
CWA            County Warning Area
DAPM           Data Acquisition Program Manager
ESA            Electronic Systems Analyst
FAR            False Alarm Rate
FPI            Federal Prison Industries, Inc.
HMT            Hydrometeorological Technician
IDP            Individual Development Plan
IFPS           Interactive Forecast Preparation System
ITO            Information Technology Officer
MIC            Meteorologist-In-Charge
NOHRSC         National Operational Hydrologic Remote Sensing Center
POD            Probability of Detection
RFC            River Forecast Center
SOO            Science and Operations Officer
WCM            Warning Coordination Meteorologist
WFO            Weather Forecast Office




                                             30

U.S. Department of Commerce                      Final Report IPE–14423 

Office of Inspector General                                  March 2002 



                              AGENCY RESPONSE





                                     31

U.S. Department of Commerce         Final Report IPE–14423 

Office of Inspector General                     March 2002 





                              32

U.S. Department of Commerce         Final Report IPE–14423 

Office of Inspector General                     March 2002 





                              33

U.S. Department of Commerce         Final Report IPE–14423 

Office of Inspector General                     March 2002 





                              34

U.S. Department of Commerce         Final Report IPE–14423 

Office of Inspector General                     March 2002 





                              35

U.S. Department of Commerce         Final Report IPE–14423 

Office of Inspector General                     March 2002 





                              36

U.S. Department of Commerce         Final Report IPE–14423 

Office of Inspector General                     March 2002 





                              37

U.S. Department of Commerce         Final Report IPE–14423 

Office of Inspector General                     March 2002 





                              38

